National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                               July 22, 2008




The Honorable Barbara A. Mikulski
Chairman
Subcommittee on Commerce, Justice, Science, and Related Agencies
Committee on Appropriations
United States Senate
Washington, D.C. 20510


Subject: NASA’s Compliance with Federal Export Control Laws and Risks Associated
         with the Illegal Transfer or Theft of Sensitive Technologies
         (Report No. IG-08-022)


Dear Chairman:

This letter is sent in compliance with Public Law 106-391, “National Aeronautics and
Space Administration Authorization Act of 2000.” That law requires that the Inspector
General of NASA conduct an annual audit of NASA policies and procedures with respect
to the export of technologies and the transfer of scientific and technical information (STI)
to assess the extent to which NASA is carrying out its activities in compliance with
Federal export control laws and other reporting requirements. In addition, Conference
Report 108-401, which accompanied H.R. 2673, the “Consolidated Appropriations Act,
2004,” directed that NASA and the NASA Inspector General work together and report
annually on the risks associated with the illegal transfer or theft of sensitive technologies
from NASA.

The NASA Office of Inspector General (OIG) continues to work closely with NASA’s
Office of the Chief Information Officer (OCIO), Office of Security and Program
Protection (OSPP), Office of General Counsel, and Office of External Relations to
identify and reduce the risks associated with the illegal transfer or theft of sensitive
technologies and ensure compliance with Federal export control laws. We remain
committed to ensuring that incidents of stolen or compromised sensitive data and
technology receive immediate action and that those responsible are held accountable.
The Office of External Relations is continuing its initiative to reach out to NASA authors
to ensure that NASA’s STI is properly approved for public release before it is presented
at conferences, in scientific journals, or otherwise disseminated. The initiative was
launched, in part, as a result of our audit report IG-08-017, “Actions Needed to Ensure
Scientific and Technical Information Is Adequately Reviewed at Goddard Space Flight
                                                                                            2


Center, Johnson Space Center, Langley Research Center, and Marshall Space Flight
Center,” June 2, 2008. We also continue to work with OCIO and OSPP to address
counter-intelligence and counter-terrorism issues (the results of which cannot be
addressed in this document).

To comply with the Public Law and the Conference Report requirement, NASA OIG
conducted, is conducting, or plans to conduct the audits, investigations, and reviews
reported herein. This letter does not provide detailed information about our findings;
however, we will provide to you copies of each product, some of which are marked
sensitive but unclassified (SBU), and will discuss any of these products with you or your
staff at your request.

Status of the Agency IT Security Program and OIG Assessment
The strength of NASA’s information technology (IT) security program is crucial to
protecting the Agency against the illegal transfer or theft of sensitive technologies. In our
annual report to the Administrator, “NASA’s Most Serious Management and
Performance Challenges” (last issued November 13, 2007), we continued to report
findings on management, operational, and technical control weaknesses that impact the
Agency’s IT Security Program and threaten the confidentiality, integrity, and availability
of NASA information and its systems. The threat is tangible in that the Agency continues
to be a target for criminal computer intrusions. For example, we investigated a series of
unlawful computer intrusions into NASA’s Earth Observation System networks. The
operational impact these intrusions have had on the Agency’s mission—such as the
temporary suspension of automated processes—has been significant. In one case during
fiscal year (FY) 2007, an unlawful intrusion resulted in approximately $1 million in
Agency losses.

NASA has also recognized IT security as a material weakness in its system of internal
controls. Demonstrating its commitment to improving its security posture, NASA has
reported making enterprise infrastructure improvements and progress against its IT
security corrective action plan, as well as adequately meeting the requirements of the
Federal Information Systems Management Act (FISMA). On the basis of these reported
improvements, the OIG is currently evaluating NASA’s actions taken to improve IT
security so that we may provide the Agency with an independent assessment of its
progress.

OIG Products Issued in FY 2007 and FY 2008
Since our last letter to Congress issued in July 2007, we have issued six products that
directly or indirectly related to identifying and reporting on risks associated with the
illegal transfer or theft of sensitive technologies. These products identified systemic
issues related to a lack of consistent application of, or noncompliance with, established
policies and regulations. The inconsistent application of, and noncompliance with,
policies and regulations could place NASA’s export-controlled technologies and data at
risk of being stolen or compromised.
                                                                                       3


“NASA’s Reporting of Performance Measure Data for the Federal Information
Security Management Act (FISMA) Needed Improvement at Four Centers and
NASA Headquarters” (Report No. IG-07-023, September 6, 2007)
Sensitive But Unclassified – Not for Public Release
We reviewed selected IT systems at four NASA Centers and Headquarters to determine
whether NASA had satisfied FISMA performance measure reporting requirements. We
found that those Centers and Headquarters had not fully complied with the standards and
guidance established by the National Institute of Standards and Technology (NIST), as
required by FISMA. Of the 18 systems we reviewed, 15 systems lacked a NIST-
compliant certification and accreditation (C&A), 13 systems had not undergone a security
control review in the past year, and 6 systems lacked a tested contingency plan.
Additionally, we found that NASA’s databases contained inaccurate data on the systems
we reviewed, and when we compared data from the databases with NASA’s FISMA
report for the second quarter of FY 2006, we found discrepancies. As a result, we
concluded that NASA’s FISMA performance measure data were unreliable indicators of
the overall status of the Agency’s IT security program. We recommended that NASA
ensure compliance with NIST requirements and that NASA validate the performance
measure data reported in the FISMA quarterly reports and retain documentary support for
the reported data. Management’s planned and completed corrective actions were
responsive to our recommendations.

“Assessment of NASA’s Certification and Accreditation Process”
(Report No. IG-07-035, September 26, 2007)
Sensitive But Unclassified – Not for Public Release

Office of Management and Budget (OMB) and NASA’s OCIO requested that we
provide, as a part of the FY 2007 FISMA compliance review, an early assessment of
NASA’s C&A process for unclassified systems categorized as moderate and high-risk
impact. Overall, we found that OCIO’s policies and procedures for the C&A process for
unclassified systems were in compliance with FISMA requirements; however, the quality
assurance function of the process could be improved. Specifically, we found inaccuracies
and inconsistencies in C&A documentation for 11 of 13 security assessment reports we
reviewed. Inaccurate and inconsistent information in the security assessment report
reduces the assurance that authorizing officials have the information they need to make a
credible, risk-based decision about system accreditation—e.g., whether to authorize
operation of an information system. OCIO immediately began taking corrective actions
to address our concerns. We recommended that OCIO provide formal notice to the
contractor and the contracting officer of our findings and take them into consideration
with regard to the contract performance metric; increase oversight of deliverables
provided by contractors; and formally remind system personnel of the importance of
reviewing and verifying the accuracy of security assessment reports. NASA management
concurred with the recommendations and is taking appropriate action.
                                                                                       4


“Federal Information Security Management Act: Fiscal Year 2007 Report from
the Office of Inspector General” (Report No. IG-07-034, September 28, 2007)
Sensitive But Unclassified – Not for Public Release

FISMA requires agencies to report annually on the effectiveness of the agency’s IT
security program and requires Inspectors General to perform independent evaluations of
their agency’s information security programs and practices. We performed an annual
independent assessment of NASA’s IT security posture and provided the results to OMB.
In a memorandum, we notified the Administrator of our plan to identify IT security as a
management and performance challenge in NASA’s Fiscal Year 2007 Performance and
Accountability Report. We also noted that NASA had identified its IT security program
as a material weakness, reportable in accordance with the Federal Managers’ Financial
Integrity Act, and that the IT security program should continue to be reported as a
material weakness until all security weaknesses previously identified have been
mitigated.

“Actions Needed to Ensure Scientific and Technical Information Is Adequately
Reviewed at Goddard Space Flight Center, Johnson Space Center,
Langley Research Center, and Marshall Space Flight Center”
(Report No. IG-08-017, June 2, 2008)
Available on the Internet

We conducted this audit to evaluate and test NASA’s guidance for the review, approval,
and release of STI. We found that although the roles and responsibilities for reviewing
and approving STI were adequately defined and documented in NASA guidance, the
guidance was not adequately implemented at the four Centers we reviewed. Specifically,
we identified 413 STI items that had been publicly released at those Centers during FYs
2005 and 2006 without the required reviews. We recommended that
•   the four Center Directors implement a plan to increase awareness of STI review
    requirements contained in NASA guidance;
•   NASA revise its STI guidance to require Center STI managers to timely notify STI
    authors whether their STI was approved for release and prohibit STI authors from
    publicly releasing STI before approval is received; and
•   NASA revise its STI guidance to include “effectiveness of the STI review process” as
    one of the annual performance measures used to determine whether NASA is
    achieving compliance with internal guidance.

Management concurred with the recommendations and their proposed actions were
responsive.

Intra-Agency Memorandums

    Sale of Export-Controlled Items (March 2008)

In March 2008, we provided the NASA Office of General Counsel three referrals
identifying individuals involved in the potential sale of items controlled under
                                                                                          5


International Traffic in Arms Regulations (ITAR). We recommended that cautionary
letters be issued to those individuals explaining their obligations under ITAR and
emphasizing the uncertainty inherent in selling defense articles and shuttle tiles in
cyberspace. In one case, we also recommended that the Agency consider revising,
updating, and strengthening its protocol for excessing property by working more closely
with the NASA Export Control Office to devise procedures to prevent ITAR-controlled
property entering the stream of commerce.

   Lost and Stolen Laptop Computers (April 28, 2008)

We recommended that Agency management take action regarding recent reports of lost
and stolen laptops and other computer equipment. Most of the reports pointed toward
employee negligence as a contributing factor. NASA regulations require employees to
protect and safeguard unclassified NASA information from unauthorized disclosure
including protecting SBU information (e.g., information related to ITAR), which is often
found on NASA laptops. We recommended that the Agency review its current policies
on safeguarding SBU information with a view toward taking steps to raise or renew
awareness of Agency regulations and safeguarding NASA assets from loss, theft, and
misuse. On May 19, 2008, NASA issued a message to all NASA civil service employees
highlighting employee responsibilities with respect to safeguarding equipment and
electronic information and referencing applicable NASA regulations related to the
safeguarding of Government property and electronic information.

Assignments in Progress
Our Office of Investigations is conducting several computer intrusion investigations
involving NASA systems containing technical data covered by ITAR or Export
Administration Regulations that are potentially at risk of unlawful access. For example,
this work includes a multi-Agency investigation involving Romanian computer hackers.
One of these hackers is being prosecuted by Romanian authorities; he has also been
charged with conspiracy and nine counts of computer intrusion by the U.S. Attorney’s
Office of the Central District of California. We are also conducting other investigations
involving the potentially unlawful disclosure of sensitive information covered by ITAR
or Export Administration Regulations. In all of these investigations, this office continues
to work with Agency senior leadership to rectify system weaknesses that allow for
network intrusions by outsiders and unauthorized disclosures by NASA civilian and
contract employees.

Our Office of Audits is currently conducting three assignments related to the transfer,
control, and protection of critical technology and sensitive data. The results of these
assignments should assist the Agency and the OIG in determining the extent to which
NASA is carrying out its activities in compliance with Federal export control laws and
other reporting requirements.
                                                                                             6


“Federal Information Security Management Act: Fiscal Year 2008 Report from the
Office of Inspector General” (Assignment No. A-08-006-00; projected issue date,
September 2008)
Sensitive But Unclassified – Not for Public Release

In accordance with FISMA, Title III of the E-Government Act, we are conducting our
annual review of the Agency’s information security and privacy program and will report
the results to OMB at the end of the fiscal year. We are conducting our work at all
NASA Centers and NASA Headquarters.

“Foreign National Access to NASA’s Export-Controlled Technology”
(Assignment No. A-08-005-00; projected issue date, December 2008)
Sensitive But Unclassified – Not for Public Release

The objective of this audit is to determine whether NASA has effectively controlled
contractors’ and grantees’ transfers of critical technologies and technical information to
foreign nationals and countries of concern. We plan to conduct our audit work at
contractor locations.

“Audit of NASA Personal Identity Verification (PIV) Processes”
(Assignment No. A-08-009-00; projected issue date, December 2008)
Will be available on the Internet

The audit objective is to evaluate the adequacy of NASA’s personal identity verification
(PIV) processes to ensure that required safeguards are in place to prevent unauthorized
access to Agency facilities, systems, and data. Specifically, we will evaluate the
adequacy of NASA’s plans for managing the transition to PIV cards that are compliant
with Homeland Security Presidential Directive/HSPD-12, “Policy for a Common
Identification Standard for Federal Employees and Contractors.”

Office of Audits Planned Projects
For FY 2009, our Office of Audits is planning two assignments related to addressing
NASA’s compliance with export control laws and regulations and the protection of
scientific and technical information from illegal transfer. In addition to our annual
FISMA reporting requirements, we also plan to conduct an audit concerning the
identification and disposition of Space Shuttle Program export controlled property.

As NASA continues its transition from the Space Shuttle Program to the Constellation
Systems Program, safeguarding sensitive technologies will become even more critical to
the safety of NASA missions and national security. As the transition unfolds, we plan to
direct our focus to include not only the disposition of Space Shuttle Program assets but
also the development of new technology, ensuring that key controls are in place to
provide adequate assurance that sensitive technologies of next-generation efforts are
protected.
                                                                                         7


If you or your staff would like to meet with us to further discuss any of the issues
addressed in this letter, please contact Ms. Evelyn Klemstine, Assistant Inspector General
for Auditing, at 202-358-2572.

Sincerely,


  signed

Thomas J. Howard
Deputy Inspector General

cc:
NASA Administrator
Deputy Assistant Administrator, Office of Security and Program Protection
Deputy Chief Information Officer for Information Technology Security
Director, Export Control and Interagency Liaison Division

Identical letter to:
The Honorable Richard Shelby
Ranking Member
Subcommittee on Commerce, Justice, Science, and Related Agencies
Committee on Appropriations
United States Senate

The Honorable Bill Nelson
Chairman
Subcommittee on Space, Aeronautics, and Related Sciences
Committee on Commerce, Science, and Transportation
United States Senate

The Honorable David Vitter
Ranking Member
Subcommittee on Space, Aeronautics, and Related Sciences
Committee on Commerce, Science, and Transportation
United States Senate

The Honorable Joseph I. Lieberman
Chairman
Committee on Homeland Security and Governmental Affairs
United States Senate

The Honorable Susan M. Collins
Ranking Member
Committee on Homeland Security and Governmental Affairs
United States Senate
                                                                   8



The Honorable Alan B. Mollohan
Chairman
Subcommittee on Commerce, Justice, Science, and Related Agencies
Committee on Appropriations
House of Representatives

The Honorable Rodney P. Frelinghuysen
Ranking Member
Subcommittee on Commerce, Justice, Science, and Related Agencies
Committee on Appropriations
House of Representatives

The Honorable Henry A. Waxman
Chairman
Committee on Oversight and Government Reform
House of Representatives

The Honorable Thomas M. Davis III
Ranking Member
Committee on Oversight and Government Reform
House of Representatives

The Honorable Mark Udall
Chairman
Subcommittee on Space and Aeronautics
Committee on Science and Technology
House of Representatives

The Honorable Tom Feeney
Ranking Member
Subcommittee on Space and Aeronautics
Committee on Science and Technology
House of Representatives
